        Office of Inspector General

        Final Memorandum Report




Superfund
Remedial Project Manager
Turnover at Superfund Sites


Report No. 2001-M-000015               June 15, 2001
Inspector General Division
Conducting the Audit:        Mid-Atlantic Audit Division
                             Philadelphia, PA


Region Covered:              Region III


Program Office Involved:     Hazardous Site Cleanup Division


Contributors:                Lorraine Fleury (Team Leader)
                             Jennifer Weidner
               UNITED STATES ENVIRONMENTAL PROTECTION AGENCY

                         OFFICE OF INSPECTOR GENERAL

                              MID-ATLANTIC DIVISION

                                  1650 Arch Street

                        Philadelphia, Pennsylvania 19103-2029

                                    (215) 814-5800



                                    June 15, 2001

MEMORANDUM

SUBJECT:	 Final Memorandum Report:
          Remedial Project Manager Turnover at Superfund Sites
          Report Number 2001-M-000015


FROM:        Carl A. Jannetti
             Divisional Inspector General for Audit
             Mid-Atlantic Division (3AI00)

TO:	         Thomas C. Voltaggio
             Acting Region III Administrator (3RA00)

Purpose

Our office received a request from Senator Charles Robb of Virginia asking that we
review U.S. Environmental Protection Agency (EPA) Region III’s activities at the
Abex Superfund site in Portsmouth, Virginia. A prior memorandum, “EPA’s
Management of the Abex Superfund Site” (2000-S-00006), dated August 31, 2000,
dealt with specific questions Senator Robb asked pertaining to the treatment of
Washington Park Housing residents located near the Abex site. This additional
review addresses the more systemic issues raised in Senator Robb’s letter.
Specifically, we sought to determine whether EPA Region III has procedures in
place that:

       ‚	 Mitigate continuity problems caused by turnover of EPA personnel in the
          Superfund program.

       ‚	 Provide that all relevant site data is entered into a single data base and
          stored in such a way that it is accessible.

This memorandum contains recommendations identified by the Office of Inspector
General (OIG). This memorandum represents the opinion of the OIG and does not
necessarily represent the final EPA position. Final determinations on matters in
this memorandum will be made by EPA managers in accordance with established
resolution procedures.


                                          1                    Report No. 2001-M-000015
Scope and Methodology

In September, 2000, we met with Region III personnel to discuss systemic issues

raised in Senator Robb’s request. To evaluate the issues, we interviewed EPA

Region III Remedial Project Managers (RPMs) and their supervisors in the

Hazardous Site Cleanup Division, Community Involvement Coordinators (CICs),

Office of Regional Counsel attorneys, and personnel responsible for maintaining the

file room. We conducted a review of the CIC’s site files and several regional site

files through the computerized filing system known as the Superfund Document

Management System (SDMS). 


The agreed-upon procedures for our review were substantially less in scope than an

audit. However, this memorandum was prepared in accordance with generally

accepted government auditing standards, Section 2.10. We began our fieldwork on

September 18, 2000 and completed it on January 12, 2001.


We issued a draft memorandum to the Acting Regional Administrator on

April 2, 2001. EPA submitted its response to us on April 16, 2001. Based on this

response, we revised our second recommendation. The Region’s comments to the

draft memorandum are summarized at the end of this memorandum, as well as our

evaluation of the Region’s response. A complete copy of the response is included in

Attachment 1. Region III and our office agreed that an exit meeting was

unnecessary because there were no outstanding issues. 


We maintained continuous communication with Region III personnel regarding the

content of this review. Although we were unable to contact Senator Robb’s staff in

December 2000 prior to the Senator’s term ending, we considered the Senator’s

concerns valid and continued with our review. Since the Senator is no longer in

office, we are issuing this memorandum report to Region III personnel.


Results of Review

We determined that EPA Region III did not have formal procedures in place to
mitigate continuity problems caused by turnover of EPA personnel in the
Superfund program. Although the Region’s management was adequate and efforts
were made to minimize the impact of turnover on site activities, implementation of
specific procedures could reduce the impact of turnover. Furthermore, we
determined that all relevant site data was stored in a way that it was accessible to
EPA personnel and the public, and efforts were underway to enter site data into a
single data base.

RPM Turnover



                                         2                Report Number 2001-S-XXXXX
During our Abex review, EPA personnel stated that there was an unusual amount
of turnover during the design phase of the Abex Superfund site cleanup. Therefore,
during this review of systemic issues, we analyzed 10 additional remedial
Superfund sites identified as having frequent RPM turnover. We found that the
turnover of three RPMs in 14 months at the Abex site was an exception rather than
the norm. Of the 10 sites reviewed, the site with the most turnover had 9 RPMs in
14 years. Litigation and hostility of residents appeared to have caused the high
turnover at that site.

Through discussions with EPA personnel and through file reviews, we found the
Region did not have formal procedures in place when a site transitioned from one
RPM to another. The time spent briefing the incoming RPM varied significantly.
Some RPMs conducted extensive exit meetings or site visits, while others spent half
of an hour briefing the newly assigned RPM. In the absence of exit meetings or site
visits, the incoming RPM would have to rely on existing site files for pertinent
information.

We determined that the use of a form would better facilitate transition for RPMs.
Based on a form used by Office of Regional Counsel attorneys when a case is
transferred internally, we drafted a similar form to be completed by current RPMs
to assist in the transfer of a site. We met with numerous RPMs to discuss their
experiences with transferring sites, and developed the form in conjunction with the
RPMs to best meet their needs. Region III personnel for the most part agreed to
complete the Site Information/Checklist Form we developed. The form is included
as Attachment 2 to this memorandum.

Overall, the RPMs believed that a site visit was the most valuable source of
information for the successful transfer of a site, and exit meetings were also
important. Additionally, two CICs mentioned using an exit meeting as a beneficial
way to ease the transition of a site. The intent of a form is to serve as a guideline
rather than as a mandatory document that must be completely filled out. The form
could facilitate the site visits and exit meetings as well as be a valuable resource
when a site visit or exit meeting is not held. The form is designed to capture
important events that may not be easily identified by a new RPM.

In addition, the weekly salients prepared by RPMs or CICs on significant events at
the site could provide a historical perspective of the cleanup effort for a newly
assigned RPM. We suggested that the RPMs and CICs save the draft versions of
their salients in a computer sub-directory or in a similar organized manner for each
of their sites. Draft versions, which are readily available, could provide the factual
information about the cleanup. Although there was mixed reaction as to whether
saving salients would be helpful, this would not cause any additional work to the
RPM or CIC, so we recommend it be done.




                                          3                Report Number 2001-M-000015
Turnover did not appear to have a significant impact on the work at the sites,
contrary to what had happened at the Abex site. The 5 CICs assigned to the 10
sites we reviewed stated that, overall, they did not think the sites were negatively
affected by the turnover of RPMs. CICs keep the public informed of site activities
through fact sheets, public meetings, and internet updates, etc. An attorney from
the Office of Regional Counsel also told us that he did not think the sites were
negatively affected by turnover, but indicated that use of a form and copies of the
salients would be good sources of background for a newly assigned RPM.
Furthermore, various site personnel noted that turnover can sometimes be
beneficial, since it can result in a new perspective or a beneficial area of expertise
being added.

Accessibility to Data

During our review of the Abex site, we found that when an RPM requested site
files, a map containing sampling information was inadvertently not included. This
omission apparently occurred because the map was an oversized document kept in a
separate file, and not specifically requested on the request form. Region III has
revised their Superfund file room request form by adding a checkbox at the top of
the form for oversized documents or imagery.

The Agency established the SDMS data base specifically for the Superfund
program. All of the documents found in the site files are to be loaded into this
single data base, which is accessible to EPA personnel and the public. SDMS will
indicate whether there are oversized documents associated with a file in the SDMS
imaged document. Region III is currently in the process of putting all site files in
the SDMS. At the time of the Abex review, Abex was not available on SDMS. EPA
personnel indicated 52 priority sites are expected to be loaded into SDMS by the
end of September 2001.

Recommendations

We recommend that the Acting Region III Administrator require:

1.	 Current RPMs for all active Superfund sites in Region III to complete the Site
    Information/Checklist included in this memorandum as an attachment.

2.	 Region III RPMs and CICs to retain copies of their draft salients in a separate
    computer sub-directory or in a similar organized manner.
EPA Response

EPA concurred with our recommendations. The response stated that within
30 days of the publication of this report, the Director of the Hazardous Site Cleanup



                                           4                Report Number 2001-M-000015
Division will be requested to issue a memorandum to all RPMs, CICs, and their
respective management instructing them to implement both recommendations.
Copies of the Site Information /Checklist shall be forwarded and retained by the
Remedial Program Branch Secretaries. In reference to the second recommendation,
EPA asked us to add the words “in a similar organized manner.”

OIG Evaluation

We agree that a memorandum instructing the RPMs and CICs to implement our
recommendations will improve the transfer of Superfund sites. We added the
requested language to our second recommendation.

Action Required

In accordance with EPA Order 2750, you are requested to provide a written
response to this memorandum and its recommendations within 90 days of the date
of this memorandum. Along with your response, please provide a copy of the
memorandum that EPA indicated it will issue to all RPMs, CICs, and management.

We have no objections to the further release of this memorandum report. Should
your staff have any questions about this memorandum, please have them contact
Lorraine Fleury at (215) 814-5800.


Attachments




                                       5               Report Number 2001-M-000015
                                                                                    Attachment 1


             UNITED STATES ENVIRONMENTAL PROTECTION AGENCY

                                   REGION III

                                1650 Arch Street

                     Philadelphia, Pennsylvania 19103-2029


SUBJECT:	      Response to Draft Memorandum for Review:
               Remedial Project Manager Turnover at Superfund Sites
               Assignment Number 2000-001509

FROM:	         Thomas C. Voltaggio
               Acting Region III Administrator (3RA00)

TO:	           Carl A. Jannetti
               Divisional Inspector General for Audit
               Mid-Atlantic Division (3AI00)

       Thank you for your draft memorandum of April 4, 2001 regarding Remedial Project
Manager turnover at Superfund Sites. The information presented appears factual and accurate. I
appreciate your evaluation of our current methodology and the two recommendations to further
improve our existing system. I concur with the following comments to both of your
recommendations which I have provided below for the purpose of clarification.

            1. Current RPMs for all active Superfund sites in Region III will complete the Site
            Information/Checklist included in your draft memorandum as an attachment.

            2. Region III RPMs and CICs will retain copies of their draft salients in a separate
            computer sub-directory.

        Within 30 days of receiving your final memorandum report, I shall request Abraham
Ferdas, Director of the Hazardous Site Cleanup Division to issue a memorandum to all RPMs,
CICs and their respective management instructing them to implement both recommendations. I
have also requested both items to be placed on the agenda for the next RPM meeting scheduled
for April 18, 2001. This will provide an opportunity to discuss the purpose of the
recommendations and receive immediate feedback from a significant percentage of the staff that
will receive the memorandum.

         Copies of the Site Information/Checklist shall be forwarded also and retained by the
Remedial Program Branch Secretaries. The Remedial Program Section Chiefs will insure that the
checklist is completed prior to relinquishing an RPM of his/her official duties at each of their
Superfund Sites. As discussed in your memorandum, this document will not be considered a
“mandatory document that must be completely filled out,” but rather a valuable resource to
facilitate the transition process.


                             Customer Service Hotline: 1-800-438-2474
                                                                                     Attachment 1


        While I concur with your second recommendation as well, I request to broaden the
language to the following: Region III RPMs and CICs will retain copies of their draft salients in a
separate computer sub-directory or in a similar organized manner. This will allow RPMs and
CICs the option to use their existing filing system since some staff may elect to retain “hard
copies” in a folder at their work station or electronic copies saved in an organized manner, but not
in a separate sub-directory. Allowing the staff to organize their draft salients within a system that
they are comfortable with, will improve the likelihood of success while achieving the goal of
retaining draft salients in an organized manner for future use.

        If you or your staff have any questions regarding this matter, please feel free to contact
either me or Christopher Corbett, at (215) 814-3220.
                                                                                            Attachment 2

                             SITE INFORMATION/CHECKLIST

INSTRUCTIONS TO RPM: This form is intended to facilitate an exit meeting among key EPA personnel

involved at a site. In addition, it is meant to highlight those unusual, yet important, events that may be

overlooked by a person unfamiliar with the site. Please note “N/A” where a question or section does not

apply.


I. INFORMATION


3.   RPM’s NAME:                                                          DATE:




4.   SITE IDENTIFICATION:


     a. Site Name:




     b. Site Address (including zip)/Directions to the Site: 




     c. Number and Description of Operable Units:




     d. Location and Organization of Site Files (note if any oversized documents exist):




     e. List Key Reference Documents to Obtain Site History:




5.   CONTACTS:


     a. Regional:

        i.   How long have you been assigned as an RPM to this site?




         ii.    Known Previous RPMs:




         iii.   Known Previous & Current OSCs:

                                                                             Attachment 2

    iv.     Known Previous & Current CICs:




    v.      Known Previous & Current Attorneys:




    vi.     Known Previous & Current Toxicologists:




    vii.    Known Previous & Current Hydrologists:





b. Non-Regional Personnel - Provide phone #’s and note level of interest:


    i.      Citizens (any TAG grants?):




    ii.     Contractor Contacts:




    iii.    Public Interest Groups:




    iv.     Congressional:




    v.      State:




    vi.     Local:




    vii.    Media Interest/Contacts:




    viii.   Other:

                                                                                          Attachment 2

6.    STATUS OF PRPs:

      a. Are there PRPs owners/operators/generators or transporters and where can a listing be found?



      b. Owners/operators at time of disposal:



7.    LEGAL HISTORY OF SITE:

      a. Consent Orders/UAO’s:



      b. Consent Decrees/Negotiated Agreements:



II. CHECKLIST


Date of Exit Meeting(s) ___________________


1.    DISCUSSION TOPICS FOR MEETING WITH KEY EPA PERSONNEL:

      ‘ Site Background: Obtain and attach updated printout from WASTELAN.

      ‘ Matters Requiring Immediate Attention.

      ‘	 Describe additional work EPA agreed to resulting from public meetings, litigation, or citizen
         concerns.

      ‘ Unresolved Issues Due to Litigation.

      ‘ Future Work Planned.

2.	   SITE VISIT:

      ‘ Introduce new RPM to contractors and key contacts.

3.    LIST DATES OF FACT SHEETS (If too voluminous, note and list 3 most recent years)

4.    ATTACH UPDATED NPL PAD

5.    REVIEW RPM’s & CIC’s VERSION OF SALIENTS
                                                                      Attachment 3


                                 Distribution


Office of Inspector General

Inspector General (2410)


EPA Headquarters

Assistant Administrator for the Office of Solid Waste and Emergency Response

(5101)

Comptroller (2731A)

Audit Followup Coordinator, Office of Solid Waste and Emergency Response

(5103)

Agency Audit Followup Coordinator (2724A)

Associate Administrator for Congressional and Intergovernmental Relations

(1301A)

Associate Administrator for Communications, Education, and Media Relations

(1101A)



EPA Region III Office

Assistant Regional Administrator, Office of Policy and Management (3PM00)

Director, Office of Hazardous Site Cleanup Division (3HS00)

Director, Office of Communications and Government Relations (3CG00)

Chief, Grants and Audit Management Branch (3PM70)

Library (3PM50)

Report Number 2001-M-000015
